<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2013 BUDGET REQUEST FOR THE FEDERAL EMERGENCY MANAGEMENT AGENCY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
    THE PRESIDENT'S FISCAL YEAR 2013 BUDGET REQUEST FOR THE FEDERAL 
                      EMERGENCY MANAGEMENT AGENCY

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY

                        PREPAREDNESS, RESPONSE,

                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 29, 2012

                               __________

                           Serial No. 112-71

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] CONGRESS.#13



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
76-598                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Joe Walsh, Illinois                  Laura Richardson, California
Scott Rigell, Virginia               Hansen Clarke, Michigan
Tom Marino, Pennsylvania, Vice       Kathleen C. Hochul, New York
    Chair                            Bennie G. Thompson, Mississippi 
Blake Farenthold, Texas                  (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
               Vacant, Minority Professional Staff Member
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications...........     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     5

                                Witness

Mr. Richard Serino, Deputy Administrator, Federal Emergency 
  Management Agency:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8

                             For the Record

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Statement of the Florida Emergency Preparedness Association....     2


    THE PRESIDENT'S FISCAL YEAR 2013 BUDGET REQUEST FOR THE FEDERAL 
                      EMERGENCY MANAGEMENT AGENCY

                              ----------                              


                      Wednesday, February 29, 2012

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Gus M. Bilirakis 
[Chairman of the subcommittee] presiding.
    Present: Representatives Bilirakis, Marino, Farenthold, 
Turner, Richardson, Clarke of Michigan, Hochul, and Thompson.
    Mr. Bilirakis. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order. The 
subcommittee is meeting today to receive testimony from FEMA 
Deputy Administrator Richard Serino on the President's fiscal 
year 2013 budget request for the Federal Emergency Management 
Agency. I now recognize myself for an opening statement.
    The full committee recently held a hearing on the 
President's fiscal year 2013 budget request for the Department 
of Homeland Security at which Secretary Napolitano testified. 
This subcommittee will continue that oversight today with a 
more in-depth review of the President's request for the--for 
FEMA.
    Administrator Serino, I believe this is the first time you 
have appeared before our subcommittee. Is that correct?
    Mr. Serino. Yes, sir.
    Mr. Bilirakis. Okay. Very good. Welcome, sir.
    The President's fiscal year 2013 budget requests $10 
billion for programs and operations at FEMA. Of this amount the 
request includes $789 million for salaries and expenses, nearly 
$200 million less than the fiscal year 2012 enacted level.
    Some of this reduction is attributable to account transfers 
while some is due to more efficient use of funding--and we 
appreciate that--such as rent reductions and improved IT 
operations. It is important in these difficult budgetary times 
that all agencies and departments work to streamline waste and 
enhance operations.
    Administrator Serino, I am interested in hearing from you 
about the management efficiencies included in this budget 
request.
    The budget request proposes major changes within the State 
and local programs account by consolidating a number of 
Homeland Security grant programs into a new National 
Preparedness Grant Program. The subcommittee will be holding a 
hearing focusing on grants next month but I am particularly 
interested in hearing more about this proposal today as the 
request leaves us with more questions than it provides answers.
    How would FEMA factor risk when allocating funding under 
this program? We want to hear that. Would high-risk urban 
areas, port authorities, and transit agencies be able to apply 
directly for funding? We are all interested.
    Allocations under NPGP would rely heavily on a State's 
threat and hazard identification and risk assessment, THIRA, 
and yet nearly a year after the THIRA concept was first 
introduced as part of the fiscal year 2011 grant guidance 
grantees have yet to receive guidance on how to conduct the 
THIRA process.
    Questions also remain as to how local stakeholders would be 
involved in the THIRA process at the State level. It is 
essential that the local law enforcement, first responders, and 
emergency managers who are first on the scene of a terrorist 
act, natural disaster, or other emergency be involved in this 
process. I am sure you will agree. They know the threats to 
their local areas and the capabilities they need to attain to 
address, of course, these threats.
    These questions and others must be answered as this 
proposal is considered. As you engage Congress on this proposal 
you must also do more to engage the State and local 
stakeholders that will be impacted by the proposed changes.
    On that note, I have received feedback from the Florida 
Emergency Preparedness Association on this proposal and I ask 
unanimous consent to insert it in the record. Without 
objection, so ordered. This is it here.
    [The information follows:]
         Submitted for the Record by Chairman Gus M. Bilirakis
        Statement of Florida Emergency Preparedness Association
       fepa comments on fema grant reform and 2012 empg guidance
    FEPA coordinated two conference calls with a focused group of 
members to discuss the recently released DHS/FEMA National Preparedness 
Grant Program (NPGP) for the 2013 grant cycle and funding guidance for 
the 2012 Federal Emergency Management Performance Grant. The calls were 
conducted on Tuesday, February 21, 2012 and Friday, February 24, 2012. 
The purpose of the calls was to exchange comments, concerns, and 
information regarding the proposals to allow FEPA to be better informed 
to provide information to the membership regarding these initiatives. 
In addition, FEPA's established relationship with Florida Congressman 
Gus Bilirakis provides the Association with a unique opportunity to 
submit our thoughts directly to the Congressman for his consideration.
    This document represents a summary of the issues and questions 
discussed on the calls.
    Background.--The NPGP consolidates a variety of current DHS grant 
programs (EMPG and Fire Grants will remain independent grants) and 
proposes that each State receive a ``base'' amount of funding allocated 
by population with the remainder of funds allocated through a National 
competitive process. FEPA recognizes any grants process can be improved 
and applauds the Federal initiatives to evaluate the grant programs' 
effectiveness and seek input on methods to improve funding processes. 
FEPA also is encouraged that the grant consolidation appears to 
reinforce an ``All Hazards'' approach to emergency management. Without 
this, emergency managers are faced with becoming ``competitors'' rather 
than ``collaborators'' with other response disciplines for scarce 
resources.
                      questions/comments/concerns
  <bullet> What portion of the overall combined NPGP funding stream is 
        dedicated to the ``base'' amount versus the ``competitive'' 
        pool of funding?
  <bullet> What is the representation on the National peer review panel 
        for the competitive process? FEPA strongly suggests the 
        inclusion of local emergency management practitioners and that 
        their representation be equally weighted with State and 
        National interests.
  <bullet> Projects funded in the competitive process are to be tied to 
        a State's Threat Hazard Identification and Risk Assessment 
        (THIRA). How will the development of initial THIRAs be funded? 
        What is the anticipated time line to complete the THIRAs?
  <bullet> Based on anticipated use of THIRA as a tool for 
        comprehensive capabilities and risk analyses, it appears that 
        the THIRAs represent a very deliberative and complex process. 
        Given this, will States have time to develop these assessments 
        for the 2013 competitive funding cycle? What is FEMA's time 
        line for completion of its (FEMA) regional THIRAs and how will 
        FEMA's regional THIRAs influence the individual State THIRA 
        documents in each FEMA region? Are State THRIAs expected or 
        required to include locally developed THIRAs or similar 
        assessments?
  <bullet> Will DHS/FEMA issue detailed guidance information on the 
        development of State THIRAs so the documents can offer a 
        consistent perspective for the National competitive project 
        review? If so, when?
  <bullet> Will States be required to include local projects in their 
        project submissions under the competitive process?
  <bullet> Will local projects or projects that benefit local 
        jurisdictions be a required percentage of a State's competitive 
        project submissions?
  <bullet> Will there be an appeals process to adjudicate the 
        determinations/outcomes of the competitive process?
  <bullet> The documents refer to ``regional capabilities'' and 
        ``deployable capabilities and assets'' under EMAC. What is the 
        definition of regional for these grant proposals?
  <bullet> Many States have established regions for operational or 
        programmatic purposes; but these may not accurately reflect 
        sociological, demographic, and other characteristics that 
        affect response capabilities and capacities. Are locally 
        trained personnel considered deployable assets under EMAC?
  <bullet> Are preparedness activities such as NIMs-compliant local 
        planning, training, and exercises still eligible and encouraged 
        for funding?
  <bullet> Are NIMS training requirements for local personnel still in 
        place or are they now only required for personnel deployed 
        under EMAC?
    The documents state: ``In addition, competitive applications will 
be required to address a capability gap identified in one of the FEMA 
Regional THIRAs, identify that the proposed new capability does not 
duplicate one that already exists within a reasonable response time and 
describe how the capability will be fully established within the 2-year 
period of performance.''
  <bullet> As noted above, when will the FEMA Regional THIRAs be 
        completed and available?
  <bullet> How does FEMA define a ``new capability that does not 
        duplicate . . . within a reasonable response time''? FEPA 
        strongly encourages DHS/FEMA to recognize intra-regional 
        capability gaps where even a robust regional approach results 
        in underserved areas and populations, particularly for events 
        that occur with little or no warning.
  <bullet> Will the base and competitive funding process require States 
        to recognize local emergency management organizations that have 
        robust programs and can effectively manage grant funds to 
        encourage distribution and use of the funds at the lowest 
        effective level of Government?
               2012 empg funding opportunity announcement
  <bullet> How does the THIRA component of the State Mitigation Plan 
        that is required to be completed by December 31, 2012 relate to 
        the THIRA used as the basis for NPGP competitive projects?
  <bullet> As noted above, how can these comprehensive assessments be 
        completed by December 31, 2012 given the grant project award 
        start date is June 1, 2012 and grantees have 90 days to accept 
        or reject an award?
  <bullet> The guidance includes permissive language that a grantee may 
        sub-grant funds to non-Governmental entities. What is the 
        purpose of this distinction in the grant guidance? This 
        provision may promote unintended segregation of these entities 
        from core emergency management Government functions rather than 
        promote inclusion. Many of these entities have access to 
        alternative Federal grant programs for their specific expertise 
        and missions.
  <bullet> If funded, will these entities be expected to meet the same 
        program requirements as Governmental entities--i.e. trained 
        personnel, approved emergency plans and procedures, training 
        and exercise plans?
            expediting expenditures of dhs/fema grant funds
    FEPA would also like to express concern regarding FEMA's recently 
released guidance to State Administrative Agencies to expedite 
expenditure of certain DHS/FEMA grant funds (Grant Programs Directorate 
Information Bulletin Number 379, February, 17, 2012). As noted above, 
FEPA recognizes the need for continual review and improvement of grant 
processes and the need to expend grant funds within a reasonable period 
of performance. However, the bulletin places the burden on grantees and 
sub-grantees to request and fully document the need for funding 
extensions without recognizing that delays with the FEMA project 
obligation, FEMA project review, and FEMA evaluation process are often 
the initial cause of the fund expenditure delays. In Florida, this is 
particularly true of multiple delays in required FEMA environmental 
review of capital projects, such as Emergency Operations Centers. FEMA 
should perform an internal review of each local project that is 
affected by Information Bulletin 379 that has experienced a delay in a 
required Federal review and automatically exempt it from the new 
requirements.

    Mr. Bilirakis. A topic I have discussed with Administrator 
Fugate on several occasions is the importance of mitigation. 
Studies have indicated that for every dollar that is spent on 
mitigation activities there is a $4 return on investment. That 
is why I was surprised to see that the President's budget 
proposed to eliminate the Pre-Disaster Mitigation Program.
    Administrator Serino, I would like to hear more about the 
rationale behind this proposal--this proposed elimination and 
how this budget supports mitigation efforts in other areas.
    Finally, I am interested in hearing more about the 
implementation of Presidential Policy Directive 8. FEMA 
released the National Preparedness Goal and the National 
Disaster Recovery Framework last fall.
    What feedback have you received from stakeholders on these 
documents? How has the NDRF been integrated into FEMA's 
recovery operations? What is the status of the development of 
the other frameworks required by PPD-8?
    With that, of course, I once again welcome you, 
Administrator. Of course, we look forward to working with you 
this year, welcome you to the subcommittee, and of course, I 
look forward to your testimony.
    The Chairman now recognizes the Ranking Minority Member, 
Ms. Richardson, for any statement she may have.
    You are recognized.
    Ms. Richardson. Thank you, Mr. Chairman, and also Ranking 
Member Thompson, for supporting us here in this hearing.
    Good morning, Deputy Administrator Serino. Thank you for 
being here today to discuss the details of the full year 2013 
budget request for the Federal Emergency Management Agency.
    I did have an opportunity to meet you when we had the open 
house, I believe, over there, and found your team to be well 
prepared to do the job.
    This budget request appears to reflect efforts to 
streamline business and procurement procedures and to eliminate 
redundant programs to reduce costs. Though I have some 
questions about some of the cost-cutting proposals, certainly 
we appreciate FEMA's efforts to do the necessary belt-
tightening that we all have to do at this time.
    That said, I have serious reservations about some of the 
proposals that are included in the full year 2013 budget 
request. Specifically, needing more details about the 
consolidations in the National Preparedness Grant Proposal 
Program, which would consolidate 16 targeted Homeland Security 
grant programs.
    Last year, despite strong opposition by the House 
Democrats, Congress approved an appropriations law that gutted 
funding for State and local programs. The bill, for the first 
time, punted its responsibility for allocating funding among 
State and local grant programs to the Secretary. As an 
authorizer I am particularly troubled that this committee did 
not take action and did not--failed to send a message of 
support for these programs.
    It is important to remember that Congress, pursuant to 
legislation within this committee's jurisdiction, was created 
to adequately provide discrete grant programs to direct grant 
investments to address specific gaps in National and local 
preparedness capabilities. Some of these programs, such as the 
Urban Area Security Initiative and the Port Security Grant 
Program, have provided support where significant gaps in 
security capabilities fail to this point.
    Moreover, I am concerned about the effect of the grant 
consolidation on the predictability of grant funding for some 
of these agencies. Few State and local governments will be able 
to replace the Federal funding that will be lost for this 
potential consolidation.
    Some of my questions will be, what do we expect to happen 
to these on-going projects and how will we fill in the gaps 
if--in the event support is needed? The work will not stop and 
the security gaps will remain despite our many efforts to 
address this problem. By bringing forward these circumstances 
Congress has to be careful that we don't be judged in the 
future for being penny-wise and pound-foolish.
    Again, I thank you for being here today. I look forward to 
your testimony. But more in particular, I would like to stress 
that I would like to hear for the record how we plan on dealing 
with the impacts that will be anticipated based upon the 
consolidations of these much-needed programs.
    With that, I yield back the balance of my time.
    Mr. Bilirakis. I thank the Ranking Member.
    I now recognize the Ranking Minority Member of the full 
committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. Thank you 
also for holding today's hearing.
    In 2011 FEMA responded to 99 major disaster declarations, 
29 emergency declarations, and 114 fire management assistance 
declarations. This Nation has never experienced more man-made 
nor natural tragedies than required Federal help than they did 
in 2011.
    Every corner of the Nation was affected. Thousands of 
people suffered loss and displacement. Many of these disasters 
did not receive extensive media coverage, however. None of the 
large-scale disasters, like Hurricane Katrina, but the people 
who lived through them, they were catastrophic moments, and in 
those catastrophic moments FEMA responded.
    Unfortunately, in 2011 FEMA had to contend with more than 
the record-breaking number of disasters. Precisely at the 
moment when funding was most needed and disaster assistance was 
critical my friends on the other side of the aisle greeted this 
unprecedented number of disasters by cutting FEMA's grant 
funding and attempting to require budgetary offsets for 
disaster relief. This year I hope that history does not repeat 
itself either in the number of disasters or in FEMA grant 
funding reduction.
    This Congress must do its part to assume--to assure that in 
times of tragedy and crisis FEMA is willing to respond and has 
adequate funding and staffing. But as we do our part FEMA must 
also do its part.
    I am encouraged that this agency is finally getting back on 
track. Many stakeholders have commented about the improvement 
in FEMA's response, especially after the tornadoes in Joplin 
and Tuscaloosa.
    However, the Nation needs to know that these stellar 
response efforts would not have been possible without the 
assistance of State and local first responders. Those State and 
local first responders gain their training through expertise 
and equipment through the use of Federal grant funding. These 
grants were cut last year and will continue to be reduced this 
year.
    FEMA's fiscal year 2013 budget request includes a proposal 
to consolidate 16 individually authorized preparedness grant 
programs into a single, insufficiently funded pool of money. 
Two weeks ago Secretary Napolitano, in testimony before this 
committee, pledged to include stakeholders in future 
discussions about grant reforms. I look forward to those 
discussions.
    With that, Mr. Chairman, I yield back.
    Mr. Bilirakis. Thank you very much.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    I am pleased to welcome Administrator Serino before the 
subcommittee. Mr. Serino was appointed by President Obama to 
serve as the deputy administrator of--of FEMA and was confirmed 
by the United States Senate on October 5, 2009.
    Prior to joining FEMA Mr. Serino served over 30 years in 
the Boston Emergency Medical Services, becoming the chief of 
the Department in 1999. He also served as the assistant 
director of the Boston Public Health Commission. Mr. Serino has 
completed studies at Harvard University's Kennedy School of 
Government and recently graduated from the Naval Postgraduate 
School's Executive Leadership Program.
    Welcome, Administrator. Your entire written statement will 
be--will appear in the record. I ask that you summarize your 
testimony, and you are recognized now, sir. Thank you.

  STATEMENT OF RICHARD SERINO, DEPUTY ADMINISTRATOR, FEDERAL 
                  EMERGENCY MANAGEMENT AGENCY

    Mr. Serino. Thank you. Thank you, and good morning, 
Chairman Bilirakis, Ranking Member Richardson, Ranking Member 
Thompson, as well as Members of the subcommittee.
    As stated, my name is Rich Serino. I am the deputy 
administrator for FEMA and I am truly honored to be here today 
on behalf of FEMA and the Department of Homeland Security to 
talk about the President's fiscal year 2013 budget, which 
possesses more than $13.5 billion for FEMA.
    As you know, as mentioned, FEMA has changed the way we do 
business over the last several years and we are much more 
effective agency today than we were in the recent past. This 
year's budget request reflects the agency to continue these 
changes by managing the existing resources, reducing 
redundancies, enhancing efficiencies, and focusing on the 
programs that help the agency fulfill its critical emergency 
management function.
    As Mr. Thompson mentioned, 2011 was a very busy year for 
first responders and emergency management officials. We 
responded to the 99 major disasters, 29 declarations, 140 fire 
management claims. Only three States in this country did not 
receive a Federal disaster declaration in 2011.
    Major disasters touched every part of the region. Tornadoes 
devastated Joplin, Missouri, impacted several other States in 
the Midwest, the South--Alabama, Mississippi, North Carolina, 
and unfortunately, today some other tornadoes have struck 
similar areas, as well. Hurricane Irene impacted 35 million 
people along the East Coast. We saw record levels of flooding 
in North Dakota, along the Mississippi and the Missouri Rivers; 
and historic droughts led to numerous wildfires in the State of 
Texas.
    I traveled extensively to many of these disasters and often 
asked: Can FEMA do this alone? Can we handle it all? The simple 
answer is: FEMA is just part of the emergency management team. 
The team is made up of first responders, volunteers, survivors, 
and Congress. You are part of that team, as well.
    We call that the whole community. We rely on the whole 
community concept in emergency management, which includes 
individuals, includes the non-profit agencies, includes the 
faith-based community, includes the private sector, includes 
Federal, State, local, Tribal governments to help our Nation to 
prepare for, protect against, respond to, recover from, and 
mitigate all the hazards.
    To be effective at the whole community we must work 
together before a State even receives a Stafford Act 
declaration of Federal assistance. That is why FEMA engages key 
community leaders to develop plans, identify resources, equip, 
train, and exercise in preparation for potential emergencies.
    To support the whole community effort FEMA has awarded 
billions of dollars in grant funds to States, urban areas, 
Tribal governments, and non-profit agencies to support homeland 
security goals. We trained more than 2 million first responders 
at the Center for Domestic Preparedness and conducted the 
first-ever National test for the emergency alert system.
    We increased the National Flood Insurance Program 
participation as well as participation in the Fire 
Administration's distance learning program. We hosted more than 
200 emergency response and recovery exercises to Federal, 
State, local, Tribal, non-profit, the private sector to work 
together, and we saw good results from those exercises during 
all of the incidents, especially the tornadoes in the South and 
the Midwest this past year.
    As part of the 2013 budget proposal the administration 
proposed a new vision for the grant programs designed to 
develop, sustain, and leverage the core capabilities across the 
Nation. The Department's previous approach was meant to achieve 
a level of funding for each State that would allow them to 
develop and maintain their baseline capabilities.
    Through consolidation of 16 grant programs, some of those 
which were redundant, the Unified Grant Program will be based 
on determined risks, called the National Preparedness Grant 
Program. The new approach, based on the new National 
Preparedness Goal, will focus on sustaining capabilities, 
addressing identified gaps, prioritizing funds for resources 
that can be deployed regionally and Nationally.
    The National Preparedness Grant Program fosters an agency's 
whole community approach to help prepare our State and local 
community, as directed by and required by Presidential 
Preparedness Directive 8. The new program will allow, in fiscal 
year 2013, to provide $500 million more to the State and local 
programs than was appropriated in fiscal year 2012.
    As we worked through our programmatic responsibilities we 
took notes of the lessons learned, improved our customer 
service to maintain good stewards of the taxpayers' dollars. We 
instituted FEMAStat, an initiative where we are able to look at 
effective ways to look at problems ahead of time, and like many 
agencies, realized our personnel costs were some of our highest 
costs and look at ways that we can improve our response efforts 
to streamline what we are able to do. We cut costs and 
streamlined the way we run joint field offices and did a lot of 
virtual joint field offices.
    In all, the 2013 budget will provide FEMA with the level of 
resources we need to support our important emergency management 
mission and will help us continue our efforts to how we do 
business so we can focus on the needs of the community, and 
most importantly, the needs of the survivors.
    Thank you. I look forward to this opportunity and answer 
any questions that you may have.
    [The statement of Mr. Serino follows:]
                  Prepared Statement of Richard Serino
                           February 29, 2012
                            i. introduction
    Good morning Chairman Bilirakis, Ranking Member Richardson, and 
distinguished Members of the subcommittee. My name is Richard Serino, 
and I am the Deputy Administrator of the Federal Emergency Management 
Agency (FEMA). It is an honor to appear before you today on behalf of 
FEMA to discuss our fiscal year 2013 budget request.
    As you know, FEMA has changed the way we do business over the past 
several years and we are a much more effective agency today than we 
were just a few years ago. The President's fiscal year 2013 budget 
reflects FEMA's goal of managing resources more effectively across the 
Federal Government while ensuring the Nation's resilience and emergency 
preparedness. We will achieve this goal by developing, sustaining, and 
leveraging our core capabilities across the country by creating a 
robust National response capacity using a Whole Community approach 
based on cross-jurisdictional and readily deployable State and local 
assets to support National preparedness and response. In addition, FEMA 
has re-evaluated its programs relative to a return on investment and 
will continue to focus its resources on those programs that have the 
most significant impact on the agency's ability to fulfill its 
emergency management mission. Moreover, FEMA will continue to 
streamline current business processes and harness the use of innovative 
technology.
    We are especially pleased to inform the committee that for the 
first time in the history of the Disaster Relief Fund, the fiscal year 
2013 request includes a $500 million reserve cache to prevent the DRF 
from falling to the dangerously low level it did during September of 
fiscal year 2011. This budget request exemplifies FEMA's commitment to 
looking for ways to do our work better, smarter, and faster, including 
identifying and eliminating redundancies and increasing productivity. 
We also continue to look for new and innovative ways to leverage the 
capabilities of our partners and stakeholders.
    We understand that FEMA, like all agencies across Government, will 
have to do more with less. For fiscal year 2013, the President's budget 
seeks a net discretionary budget authority of approximately $10.008 
billion, which is $641.5 million dollars, or 6.02 percent, less than 
FEMA's fiscal year 2012 enacted level.
                ii. reviewing and streamlining programs
    FEMA is constantly reviewing its policies and programs to identify 
and quickly remedy any existing wasteful practices or processes. Such 
reviews have resulted in changed policies, streamlined processes, and 
occasionally, eliminated programs. These efficiency initiatives are 
crucial if we are to continue accomplishing our mission efficiently and 
effectively. Throughout the past year, we implemented many efficiency 
measures such as streamlining our already sound financial business 
practices, implementing outcome-based strategic planning, and creating 
improvements to disaster assistance delivery. These efforts will 
continue next year and are reflected in the fiscal year 2013 budget 
request.
FEMAStat
    In January 2011, FEMA began implementing FEMAStat, a management 
process designed to consistently examine specific outcomes across the 
agency in order to ensure alignment with the administrator's 
priorities. FEMAStat helps us monitor the agency's readiness posture 
and allows leadership to identify developing trends, shape priorities, 
and seize opportunities to improve performance. The FEMAStat process 
allows managers to recognize performance gaps based on real data then 
make the decisions necessary to address those gaps.
    Since the inception of this new initiative, we have realized many 
achievements, including:
  <bullet> the identification of opportunities to build internal 
        expertise and save costs;
  <bullet> the adoption of regular metrics and milestone-based reviews 
        by specific component, such as the Mission Support Bureau's 
        weekly briefing to senior staff on their performance measures;
  <bullet> the establishment of the Office of the Chief Procurement 
        Officer (OCPO) as the responsible party for FEMA's acquisitions 
        process, from start to finish. By reorganizing and assigning 
        this role to the OCPO, a single office will track the entire 
        process and indentify inefficiencies and bottlenecks along the 
        way; and
  <bullet> the refocusing of resources on Individual and Community 
        Preparedness, following discovery that only a small percentage 
        of the preparedness budget had been spent in this area. As a 
        result, I recently directed funding for individual and 
        community preparedness programs be increased by $10 million. To 
        build and sustain National preparedness and support existing 
        programs, we are developing a campaign to move members of the 
        public from awareness to action. Elements include a year-round 
        effort to support preparedness through media and outreach and 
        expand youth preparedness technical assistance. Technical 
        assistance will increase the volume of youth preparedness 
        programs Nation-wide and enhance the effectiveness and 
        sustainability of those existing. The network of youth and 
        school preparedness will cross ages and sectors, and benefit 
        from a foundation of collective National partners committed to 
        institutionalizing youth and school preparedness.
    Throughout the next fiscal year, we will continue to use FEMAStat 
to review the effectiveness of our activities and find ways to 
eliminate identified inefficiencies.
Salaries & Expenses
    The Salaries and Expenses (S&E) appropriation, formerly Management 
and Administration, provides core mission funding for the development 
and maintenance of an integrated, Nation-wide capability to prepare 
for, mitigate against, respond to, and recover from the consequences of 
major disasters and emergencies. Consistent with Congress' 
appropriation in fiscal year 2012, the fiscal year 2013 President's 
budget request has organized the S&E appropriation under the following 
program/project/activity (PPA) structure: Administrative and Regional 
Offices, Preparedness and Protection, Response, Recovery, Mitigation, 
Mission Support, and Centrally Managed Accounts. This structure ensures 
that the resources are transparent and grouped with like activities.
State and Local Programs
    FEMA is constantly reviewing all of the agency's policies and 
programs to identify wasteful practices and processes. To this end the 
agency proposes in fiscal year 2013 to consolidate its various 
preparedness grant programs--with the exception of the Emergency 
Management Performance Grants and Assistance to Firefighter Grants--
into a single, comprehensive preparedness grant program called the 
National Preparedness Grant Program (NPGP).
    The NPGP will require grantees to develop and sustain core 
capabilities outlined in the National Preparedness Goal rather than 
work to meet mandates within individual, and often disconnected, grant 
programs. NPGP will also focus on creating a robust National response 
capacity based on cross-jurisdictional and readily deployable State and 
local assets.
    Consolidating the preparedness grant programs will support the 
recommendations of Pub. L. 111-271, the Redundancy Elimination and 
Enhanced Performance for Preparedness Grants Act, and will streamline 
the grant application process. This will enable grantees to focus on 
how Federal funds can add value to their jurisdiction's unique 
preparedness needs while contributing to National response 
capabilities. To further increase the efficiency of the NPGP, FEMA will 
issue multi-year guidelines, enabling the agency to focus its efforts 
on measuring progress towards building and sustaining National 
capabilities. This consolidation will eliminate administration 
redundancies and ensure that all preparedness grants are contributing 
to the National Preparedness Goal.
    For fiscal year 2013, FEMA is requesting $1.54 billion for the 
NPGP. The complete reorganization of preparedness grants will allow for 
a more targeted grants approach where States build upon the 
capabilities established with previous grant money.
Bottom-up Reviews
    Another way that FEMA can identify potentially wasteful practices 
or opportunities for improvement is by performing programmatic bottom-
up reviews (BUR). A bottom-up review is a systematic review of every 
aspect of an agency program from multiple stakeholder viewpoints and 
helps identify ways and methods to improve the program.
    In December 2011, FEMA initiated a BUR of the Pre-positioned 
Equipment Program (PEP) to assess the efficacy of the program based on 
capital investments versus deployments of the PEP caches. The BUR 
analysis revealed that PEP resources are redundant of capabilities 
provided by FEMA grant programs and have not been utilized since 2005 
for disaster response and the desired return on investment for this 
program has not been realized. In fact, the caches were only deployed 
to a limited number of events and in each case, the inventory was not 
used. Based on the BUR analysis, and having given due diligence to the 
consideration of potential extenuating factors, FEMA proposes to fully 
eliminate the Pre-Positioned Equipment Program (PEP) in fiscal year 
2013, which will result in a savings of $6.2 million.
    FEMA is also conducting a National Urban Search & Rescue (US&R) BUR 
to determine whether the US&R Response System, as currently structured, 
can fulfill the Nation's current and future needs for technical US&R 
capabilities and to identify strategies to improve the efficiency and 
effectiveness of the System. In March 2011, an initial report presented 
dozens of system issues identified through stakeholder interviews. 
FEMA's Office of Policy and Program Analysis (OPPA) is now in the 
process of finalizing their report.
    The Public Assistance (PA) BUR was kicked off in the spring of 2011 
and was designed to be a comprehensive review of the PA program's 
processes, procedures, and policies. The objectives of the PA BUR are 
to identify ways to improve the efficiency and effectiveness of the PA 
program, to make it less burdensome for all, and to develop 
recommendations for program changes to support the rapid recovery of 
communities affected by disasters. FEMA has recently concluded the 
review phase, and based on the input received has developed a vision 
for an improved PA program. FEMA is currently finalizing a course of 
action to realize this vision, which will include opportunities to gain 
feedback from our stakeholders on potential enhancements of revisions 
to the program.
Pre-Disaster Mitigation
    To ensure a maximum return on investment, efficiency, and 
effectiveness as well as to reduce redundancy within FEMA grant 
programs in fiscal year 2013, we proposes to eliminate the Pre-disaster 
Mitigation (PDM) program. The Pre-disaster Mitigation Program has an 
unexpended balance of $174.2 million, and FEMA will be working to 
allocate these amounts in fiscal year 2013 and recover any unexpended 
balances.
    Since the most costly and frequent natural disaster is flooding, we 
plan to maximize the use of our flood grant portfolio to assist in 
managing the risk. FEMA administers four other mitigation grant 
programs that can fund, or exclusively fund, flood mitigation projects. 
In addition, PDM funds are used to fund State and local hazard 
mitigation plans, which is an eligible activity under the Hazard 
Mitigation Grant Program. FEMA intends to use its sizeable unobligated 
carryover balance from prior years to close outstanding grants.
                       iii. disaster relief fund
    The Disaster Relief Fund (DRF) accounts for a significant portion 
of FEMA's budget and mission. For fiscal year 2013, FEMA and the 
Department of Homeland Security are taking prudent steps to ensure the 
DRF is funded at the appropriate level to meet the assistance needs of 
affected communities and disaster survivors following a Presidentially-
declared major disaster or emergency. In addition, FEMA has further 
refined its accounting methodology to align with the Budget Control Act 
(BCA) of 2012.
    As a matter of practice, FEMA continually reassesses out-going 
obligations and reimbursements held against the DRF balance, such as 
contract requirements or Public Assistance and Hazard Mitigation 
projects from past disasters. This consistent financial monitoring 
allows us to determine if outstanding funds can be de-obligated from 
previous projects and returned to the DRF. By de-obligating mission 
assignments and disaster contracts in 2010, and de-obligating funds 
from completed projects in 2011, FEMA returned over $4.7 billion (as of 
September 30, 2011) to the DRF since the beginning of fiscal year 2010.
    For fiscal year 2013, FEMA requests $6.09 billion for the DRF, $5.5 
billion of which is designated as being for disaster relief in response 
to major disasters. Additionally, we estimate that we will be able to 
de-obligate $1.2 billion in fiscal year 2013 by continuing to enforce 
standard closeout policies, establish and track closeout metrics, and 
streamline and simplify the closeout process.
    FEMA's 2013 request was calculated in accordance with the BCA, and 
therefore does not account for unexpected catastrophic events (those 
with expected costs exceeding $500 million) that may occur in fiscal 
year 2013. Our request assumes that events costing greater than $500 
million and that occur during fiscal year 2013 will be funded with 
emergency supplemental funding, as provided for in the BCA. The fiscal 
year 2013 request, as formulated, accounts for the continuing costs of 
past large-scale disasters and the expected annual cost of small-scale 
disasters.
    The fiscal year 2013 request also includes a $500 million reserve 
cache to prevent the DRF from falling to the dangerously low level that 
it did during September of fiscal year 2011. This is especially crucial 
since the end of the fiscal year coincides with the 2013 hurricane 
season. We are also seeking to avoid a repeat of fiscal year 2010 and 
fiscal year 2011 when we implemented Immediate Needs Funding 
restrictions, which delayed critical rebuilding projects.
            iv. investments in our workforce and technology
    A key to increasing any agency's efficiency is to make strategic 
investments in its people and technology. FEMA understands this and has 
already begun work on key investments that will increase the agency's 
capabilities and aid us in accomplishing our mission.
Investing in Our Workforce
    In 2011, the Office of the Chief Human Capital Officer (OCHCO) 
established a new orientation and training program for newly-hired 
employees. These new training courses teach employees about FEMA, its 
mission and culture, and how to work with our programs across the 
organization. OCHCO has already trained more than 450 new hires through 
this initiative and FEMA will continue to evaluate and improve its 
onboarding process to ensure that new employees are as productive and 
prepared as possible.
    FEMA is developing several leadership development initiatives to 
enhance opportunities for growth for our current employees. By 
investing in leadership programs, we are investing in the future of 
FEMA. In 2011, FEMA launched the Future Leaders program; a 1-year 
program designed to enhance a participant's understanding of leadership 
at FEMA to build their leadership competencies. After a competitive 
selection process, 33 employees were selected for the inaugural year of 
the new program and after its completion the group has already begun to 
positively impact FEMA. The Future Leaders have been working to promote 
the FEMA leadership culture throughout the entire agency, as well as 
serving as inspiration for other young people to enter into emergency 
management as a potential career, thereby a ``win/win'' for the whole 
community.
    Additionally, FEMA recognizes that every employee of our agency is 
an emergency manager, and we are focusing on improved training and 
position qualifications to ensure we can provide the best possible 
customer service during disaster response and recovery efforts. FEMA 
recently developed a National credentialing program focused on a 
Government-wide and holistic approach to disaster surge staffing. The 
new FEMA Qualification System (FQS) will ensure that disaster response 
and recovery professionals are held to consistent expectations of 
workforce competency so they can perform the critical actions required 
to help individuals and communities respond to, recover from, and 
mitigate against disasters. This unified approach will ensure that FEMA 
employees are receiving the right training and will deliver that 
training in an organized and efficient manner. We recently held town 
hall meetings in each of our regional offices, and at our headquarters 
building here in Washington, to discuss these changes directly with our 
staff. I personally led the meetings in Regions I, VI, and X, and was 
incredibly pleased by the productive dialogue and exchange of ideas 
that we had during the town halls.
IT Automation Modernization
    FEMA is in the process of planning and executing major initiatives 
in IT automation modernization, streamlining the agency's information 
management systems. Currently, FEMA relies on a time-consuming, manual 
process to pull data about disaster efforts and funding, as well as 
other programmatic efforts. With the funding proposed in the fiscal 
year 2013 budget, FEMA will build on the fiscal year 2012 
appropriations and work to modernize its IT systems and apply a 
comprehensive approach that integrates the preparedness, prevention, 
response, mitigation, and recovery missions when planning its 
activities. These improvements will allow the agency to more 
effectively and efficiently articulate metrics and outcomes.
Facility Upgrades to Mt. Weather
    Another important investment contained in this budget is for the 
Mt. Weather Emergency Operations Center (MWEOC). MWEOC is a 564-acre 
FEMA facility approximately 64 miles west of Washington, DC. This 
facility provides the infrastructure necessary to support the agency's 
Continuity of Operations (COOP) activities, Incident Management, 
classified programs, and other all-hazards activities for multiple 
Federal Executive Branch Departments/Agencies (D/As). MWEOC is 
currently undergoing a massive infrastructure upgrade to provide modern 
facilities capable of supporting 21st Century technology and today's 
Federal Department and agency requirements. In order to support this 
initiative, we propose a $10 million increase in funding in fiscal year 
2013.
Modernizing the Emergency Alert System (EAS)
    FEMA is also in the process of modernizing the Nation's Emergency 
Alert System (EAS). An important aspect of continuity planning is the 
technology used to communicate with the public. The Integrated Public 
Alert and Warning System (IPAWS) program is a modernization and 
integration of the Nation's EAS. IPAWS is designed to improve public 
safety through the rapid dissemination of emergency messages to as many 
people as possible over as many communications devices as possible. In 
November 2011, FEMA conducted the first-ever Nation-wide EAS test. This 
National EAS test assessed the capability of the system to communicate 
emergency information simultaneously across the United States. FEMA now 
has the information to determine the extent of the EAS successes and 
opportunities for improvement so we can now move forward to advance the 
system and its components.
    In addition to modernizing the EAS, FEMA is developing two systems 
for individuals with enabled mobile devices to receive important 
emergency messages; the PLAN (Personal Localized Alerting Network), and 
the CMAS (Commercial Mobile Alerting System). These programs will use 
mobile technology to provide geographically targeted alert messages 
such as warnings on imminent threats, AMBER alerts, or emergency 
messages from the President. PLAN/CMAS leverages the extensive work 
done by the cellular industry and the DHS Science & Technology 
Directorate (S&T) to deliver these messages while avoiding the delays 
commonly found in text-message based systems. This new process is a 
critical capability as was shown during the moments following the 
earthquake in this region last August when there were clear delays 
disseminating text message alerts to the public.
    PLAN/CMAS became operational in New York City and Washington, DC, 
during this past fall and winter, and we anticipate a Nation-wide 
operational capability beginning April 2012. FEMA is working with the 
cellular industry and DHS S&T to conduct test and pilots of this 
capability over the next several months to ensure its success.
         v. the whole community approach: 2011 accomplishments
    Regardless of the budget environment, it is important to recognize 
that FEMA's efforts are part of an interconnected plan of action for 
emergency management. This Whole Community approach to emergency 
management provides the best framework for leveraging the expertise and 
resources of our stakeholders at all levels, both Governmental and non-
Governmental. Moreover, the Whole Community approach is an important 
efficiency and cost-saving tool since it maximizes our limited funding 
by leveraging the capabilities of our partners.
    In this past year, we have continued to utilize the Whole Community 
approach to better fulfill our mission. During fiscal year 2011, FEMA 
responded to 98 new Presidential major disaster declarations, 26 new 
Presidential emergency declarations, and 112 new fire emergency 
declarations. In all, the agency's efforts provided needed assistance 
to 48 States, the District of Columbia, and one territory in responding 
to a variety of major disasters, including severe winter storms, 
devastating tornadoes and flooding, wildfires, Hurricane Irene, and 
Tropical Storm Lee. Some examples of FEMA working with the Whole 
Community before, during, and after disasters include:
  <bullet> During the response to Hurricane Irene, Federal officials 
        were embedded in State and local emergency management operation 
        centers and assessment teams were pre-deployed to every State 
        in the storm's path. As a result, leading up to the storm's 
        landfall State and local officials consistently reported no 
        communication challenges--usually the No. 1 problem identified 
        in past disaster response.
  <bullet> In Missouri, FEMA Emergency Support Function No. 14 provided 
        planning, organizational, and on-site event support for the 
        Joplin Citizen Advisory Recovery Team's first Open House 
        Workshop. Approximately 300 people attended the open house 
        event, during which residents learned about the recovery 
        planning process and had the opportunity to provide their input 
        to the recovery process.
  <bullet> In Georgia, FEMA and the Georgia Emergency Management Agency 
        collaborated with the State's American Bar Association to 
        provide free legal assistance to survivors.
  <bullet> In Alabama, FEMA partnered with the Alabama Department of 
        Mental Health to activate Project Rebound in the tornado-
        affected parts of Alabama to provide free crisis counseling for 
        an extended time after the disaster.
  <bullet> We connected big businesses to small business in the 
        response and recovery efforts to the devastating Joplin 
        Tornado. In response to the tornadoes across the South, we 
        shared data on store locations, available resources, power 
        restoration and situational awareness with hundreds of private-
        sector organizations.
  <bullet> In multiple disasters we coordinated for private-sector 
        support at the community level, working with our joint field 
        offices to facilitate mobile phone charging stations, financial 
        guidance, hygiene kits, billboard messaging, hotel information 
        videos, philanthropic efforts, and more.
  <bullet> On the preparedness side, we increased private-sector 
        participation in our National Level Exercise to a historic 
        level of over 3,000 participants. And in support of National 
        Preparedness Month, we also inspired significant gains in 
        private-sector coalition members, with more than 1,300 signed 
        members.
  <bullet> The DHS Center for Faith-based and Neighborhood Partnerships 
        responded to Presidentially-declared disasters in several 
        States. Working in partnership with FEMA Regional Voluntary 
        Agency Liaisons (VALs), The DHS Center, hosted ``FEMA 101'' 
        sessions for local faith leaders in Alabama to inform them 
        about the FEMA application process and encourage them to assist 
        community members in applying for FEMA assistance. DHS Center 
        supported faith-based and voluntary responses to the Joplin 
        tornado by working with the Volunteer Reception Center 
        established and run by AmeriCorps; The American Red Cross 
        shelter; Convoy of Hope's and Southern Baptist Convention's 
        Disaster Relief operation centers.
    These are just a few of many examples of FEMA's efforts to 
effectively partner with the expertise and resources of our 
stakeholders at every level.
National Preparedness Goal and System
    In 2011, FEMA became the Federal lead for the implementation of 
Presidential Policy Directive 8 on National Preparedness (PPD-8). PPD-8 
requires the development of both a National Preparedness Goal and a 
National Preparedness System. The National Preparedness Goal 
establishes core capabilities for prevention, protection, response, 
recovery, and mitigation that will serve as the basis for preparedness 
activities within FEMA, throughout the Federal Government, and at the 
State and local levels. The National Preparedness System enhances the 
Whole Community concept by formalizing engagement across all levels of 
government to develop and strengthen a consistent preparedness process. 
Looking ahead, FEMA will continue to organize the implementation of the 
National Preparedness System in accordance with both PPD-8. FEMA will 
also be working with partners across the emergency management community 
to integrate activities into a comprehensive campaign to build and 
sustain preparedness.
National Disaster Recovery Framework (NDRF)
    In 2011, FEMA released the National Disaster Recovery Framework 
(NDRF). The NDRF--for the first time--clearly defines coordination 
structures, leadership roles and responsibilities, and guidance for 
Federal agencies, State and local governments, and other partners 
involved in disaster recovery planning and implementation. The NDRF 
reflects input gathered through extensive stakeholder discussions which 
included outreach sessions conducted by FEMA and the Department of 
Housing and Urban Development in each of the ten FEMA Regions, and 
forums held in five cities across the country. The final NDRF 
incorporates comments and recommendations from discussion roundtables 
held with professional associations, academic experts, and more than 
600 stakeholders representing Federal, Tribal, State, and local 
governments, as well as public and private organizations.
    In September 2011, FEMA hosted the National Recovery Tabletop 
Exercise (Recovery TTX). This exercise involved players from the Whole 
Community, with over 200 participants from Federal, State, local, and 
non-governmental organizations. It was the first opportunity to explore 
the application of the NDRF using a National Level Exercise large-
scale, multi-State, multi-Region catastrophic earthquake scenario. The 
Recovery TTX was a great opportunity to further outline the scope of 
each Recovery Support Function (RSF), identify the necessary linkages 
between RSFs and understand capacities to support the RSFs in all 
phases of recovery.
Individual Assistance (IA)
    Over the past several years, FEMA has overhauled its recovery 
capability to provide individual assistance (IA) more quickly and 
efficiently. In 2005, FEMA had a daily capacity to perform 7,500 home 
inspections that were used to determine which FEMA repair and 
replacement grants a disaster survivor may be eligible to receive. 
Today, FEMA's capacity has increased to 20,000 home inspections daily 
by the 15th day of the disaster.
    FEMA has also established internet registration and applicant 
intake surge capacity to process up to 200,000 registrations per day 
during a catastrophic event. Moreover, since the identity of nearly all 
applicants is authenticated at registration, FEMA is able to strengthen 
controls against waste, fraud, and abuse. In 2011, web registrations 
accounted for one-third of all registrations.
    In addition to a centralized website, FEMA's National Processing 
Service Centers (NPSC) have made significant improvements in customer 
service that have resulted in the ability to quickly and efficiently 
serve more customers. Through initiation of an Interactive Voice 
Response (IVR) system, applicants can now check the status of their 
application without agent intervention. This self-service option for 
disaster applicants is also provided through a comprehensive on-line 
capacity. As a result of these new automated options, in calendar year 
2011 the Registration Intake and Helpline achieved an average wait time 
of just 55 seconds and answered more than 1.7 million calls.
Mass Care
    FEMA has improved the way it delivers mass care services by 
implementing the National Mass Care Strategy. This strategy provides a 
framework to strengthen and expand resources available to help shelter, 
feed, and provide other mass care services by pooling expertise and 
identifying partnership opportunities. The newly created National Mass 
Care Council was launched in June 2011 and is co-chaired by the 
American Red Cross, FEMA, and the National Voluntary Organizations 
Active in Disaster (National VOAD). FEMA is an important part of the 
emergency management team; however, we have learned that we cannot and 
should not do it alone. Whole Community is a team approach that not 
only engages our partners at every level, but allows us to maximize 
available resources by leveraging their assets and abilities.
Risk Mapping and Flood Insurance
    This past fiscal year, FEMA initiated 385 Risk Mapping, Assessment, 
and Planning (Risk MAP) projects affecting 5,100 communities and 
addressed the highest priority engineering data needs, particularly 
coastal and levee areas. In addition, the National Flood Insurance 
Program (NFIP) reduced potential flood losses by an estimated $1.7 
billion and wrote more than 5.5 million flood insurance policies, 
providing financial protection for more than $1.25 trillion in property 
value from flood loss. Moreover, the Unified Hazard Mitigation 
Assistance (UHMA) program provided up to $252 million in flood grant 
funds, which prevented losses of approximately $502 million. FEMA's 
mitigation efforts play an essential role in the agency's mission by 
increasing the resiliency and reducing the financial impact of 
disasters.
National Level Exercise 2011 (NLE 11)
    FEMA coordinated the National Level Exercise 2011 (NLE 11) in May 
2011 and tested response capabilities to a simulated catastrophic 
earthquake along the New Madrid Seismic Zone (NMSZ).
    The main priority for NLE 11 was to validate National, joint, 
regional, and State operations planning objectives and courses of 
action in response to an NMSZ earthquake. This exercise also served as 
an opportunity to test and evaluate the Whole Community response 
methodology to effectively collaborate within the NMSZ catastrophic 
incident management system. Through this exercise, we identified many 
strengths as well as some areas of improvement that can be applied to 
both NMSZ earthquake planning and to other catastrophic planning 
efforts.
    Areas of strength identified:
  <bullet> The U.S. Department of Justice worked with the affected 
        States to facilitate executive orders that deputized Federal 
        law enforcement personnel, allowing them to enforce State and 
        local laws;
  <bullet> Incident information was disseminated to private-sector 
        partners through two daily conference calls, with participation 
        from approximately 200 private-sector organizations; and
  <bullet> The National Response Coordination Staff (NRCS) developed an 
        effective National Advanced Operational Plan (N-AOP) to help 
        project shortfalls and inform resource prioritization and 
        allocation decisions.
    Areas for improvement identified:
  <bullet> Existing processes to request, activate, deploy, and track 
        life-saving/life-sustaining resources did not meet FEMA's 
        existing requirements;
  <bullet> Liability and licensure issues delayed international Urban 
        Search and Rescue and medical teams from supporting the 
        response;
  <bullet> There were not enough resources or facilities available to 
        support mass care requirements; and
  <bullet> While redundant communications and Federal communication 
        assets supported the response, there were critical gaps in 
        achieving communications after a catastrophic event and 
        ensuring that the Federal Government can effectively 
        communicate with populations without power.
                             vi. conclusion
    Over the past several years, FEMA has undergone a major overhaul to 
improve our existing programs and improve customer service to disaster 
survivors. The successes we have achieved would not have been possible 
without the significant resources provided to us by Congress and 
specifically Members of this committee. Still, we understand that we 
are competing for finite resources within a budgetary climate that 
requires us to make difficult program choices and become more even more 
efficient in our efforts.
    The administration's proposed budget reflects the appropriate 
balance of enabling FEMA to fulfill its mission while reducing spending 
in several areas and forcing program efficiency and innovative 
thinking. FEMA will continue to fulfill our most important mission to 
support our citizens and first responders to ensure that as a Nation we 
work together to build, sustain, and improve our capability to prepare 
for, protect against, respond to, recover from, and mitigate all 
hazards.
    Thank you again for the opportunity to appear before you today to 
discuss the proposed FEMA budget for fiscal year 2013.

    Mr. Bilirakis. I recognize myself for 5 minutes.
    As I noted in my opening statement, and I know you just 
addressed, I believe that the budget request lacks sufficient 
detail about the proposed National Preparedness Grant Program. 
We just have to hear more.
    When can this subcommittee expect to receive additional 
information from FEMA, including eligible direct applicants and 
the risk formula that would be used to allocate the grants? We 
are going to have another hearing--I believe it is next week--
specifically on this issue. But if you could address that I 
would appreciate it. Thank you.
    Mr. Serino. Sure. We are in the process of actually going 
through and--and getting as much input that we can, as you 
mentioned, from the stakeholders. We are reaching out to our 
stakeholders as well as, obviously, Members of Congress to get 
the input on how we are going to implement the National 
Preparedness Grant Program as we bring together those 16 
various programs and consolidate them into one. We plan on 
doing that and moving forward over the next few weeks.
    Mr. Bilirakis. Very good.
    We are going to try to limit the questioning to 5 minutes, 
and then maybe we can go for a second round. But I know that 
Members will have more questions than the time slot allotted, 
so please enter your questions into the record.
    I know that, Administrator, you will also be available for 
questioning. Thank you very much--after this hearing.
    The proposed National Preparedness Grant Program relies 
heavily on the Threat and Hazard Identification and Risk 
Assessment, as I mentioned earlier, THIRA, that will be 
completed by the States. The THIRA requirement was first 
included in the fiscal year 2011 Homeland Security grant 
guidance nearly a year ago. As I mentioned, however, the States 
are still waiting to receive guidance from FEMA on conducting 
the THIRA.
    When will the THIRA guidance be provided to grantees and 
how will the Department of FEMA work with States to develop 
these assessments? Second, how will FEMA work to ensure that 
the input of local stakeholders, again, is included in THIRA?
    Mr. Serino. The THIRA guidance we should have completed 
within the next, again, few weeks. It is something that we have 
been pushing for. We should certainly have it, I would say, you 
know, by the end of the month in March, that we will have it 
out to our--to the grant stakeholders.
    As well, we are also looking at how we are able to bring 
together and hear from the local and State officials. Having 
spent my entire career prior to coming here as a local official 
in emergency response it was important that we reach out to the 
locals.
    The locals are on the ground. The State, the locals know 
the issues at hand. That is why in the National Preparedness 
what we have done for this grant and for fiscal year 2012 is 
actually relax some of the restrictions that were on in the 
past so that in the previous years could actually use some of 
that--those grant dollars to free up, and we have removed a lot 
of the restrictions on those.
    Mr. Bilirakis. Very good. Thank you.
    As you may know, the Government Accountability Office 
recently released its report on duplication within the Federal 
Government. In these difficult times we must work to limit 
duplication--I am sure you agree with that--and any 
inefficiencies, something that FEMA has tried to address in the 
budget, and I really appreciate that.
    It is for this reason I was surprised, however, to hear 
that FEMA is considering starting its own Office of 
Intelligence, which would seem to be duplicative of the work 
conducted by the Department's Office of Intelligence and 
Analysis. Of course, first, is this true? If it is, why? Does 
FEMA feel that it is receiving the--is it receiving the 
necessary support from I&A?
    Mr. Serino. What we are looking at doing is actually having 
more of a liaison ability to make sure that we get the 
information--not building an office, but actually able to get 
the information from them, and part of the team is a liaison so 
we are able to get informed. We are not going to be going out 
and looking at it and analyzing it; it is more creating a 
liaison so we are actually able to get the information.
    Mr. Bilirakis. I see.
    Mr. Serino. Working closely with the intelligence community 
within the Department----
    Mr. Bilirakis. Well, I appreciate you clarifying that.
    FEMA has been working for years to develop measures and 
metrics to determine the effectiveness of these grant programs, 
but we have seen little of these efforts--any results. What is 
the status of the development of these metrics? When will this 
committee receive the report on the results of the work FEMA 
conducted with the National Academy of Public Administration?
    Mr. Serino. We have been working on the National 
Preparedness Report, and as called for in PPD-8, we will have 
that done by the end of March 2012 that that report will be 
completed and will be made available.
    Mr. Bilirakis. Very good.
    One last question. This subcommittee has conducted 
continuing oversight over the Integrated Public Alert and 
Warning System, IPAWS. Recently this subcommittee actually 
approved legislation--it will go to the full committee, we 
hope, actually next month.
    You discuss IPAWS in your statement. Will you elaborate on 
how the budget request supports the continued development of 
our alert and warning capabilities?
    Mr. Serino. Sure. We were able to do the National test 
earlier this last--end of last year, and that provided some 
information. It was the first ever test, and with that----
    Mr. Bilirakis. Can you give us an assessment--excuse me--on 
the National test?
    Mr. Serino. Sure. We learned a lot. It was the first ever 
National test. We learned a lot. We are still compiling a lot 
of the information on that, but we are also looking at some of 
the things that worked very well and some of the places that 
there were gaps.
    We have been working with the communications industry as 
well as with the general public. A lot of the information that 
people were concerned about ahead of time actually did not 
happen, and we had very good response overall. What we plan to 
do is actually take even more of the data and look and see how 
we can address it as we move forward both with IPAWS and any 
future tests that we may be doing.
    Mr. Bilirakis. Okay. Could you also briefly give me 
assessment on the implementation of the Personalized Local 
Alerting Network, and I understand it was deployed in New York 
City and Washington, DC?
    Mr. Serino. What we were able to do is to have a system 
that people would actually send messages out to their cell 
phones. People could sign up for that. We were able to deploy 
that in a people--in localized areas, similar to what a lot of 
communities that have Reverse 9-1-1 for land lines, we would 
also be able to send alert messages out to people's mobile 
phones. There are ways that people can sign up for that. It is 
both in New York, we are also looking and we have started a lot 
of outreach in our social media area in utilizing cell phones 
and utilizing mobile applications that people can actually sign 
up on-line with their mobile phones to get disaster assistance 
at m.fema.gov.
    Mr. Bilirakis. Thank you very much.
    Now I will recognize Ranking Member Richardson, thank you, 
for 5 minutes.
    Ms. Richardson. Actually, I am going to defer my time to 
the Ranking Member of the committee.
    Mr. Bilirakis. You are recognized, sir.
    Mr. Thompson. Thank you very much.
    Mr. Serino, kind of explain to us the recoupment letters 
that have gone out. Where are we on that?
    Mr. Serino. The majority of the recoupment letters have 
gone out, and probably the most important thing for people to 
realize is those letters have gone out and for people who have 
received the letters, that they have 60 days to get back to us 
so we can look at forgiving those. So I think it is important 
for people, once they receive those, to make sure they get back 
to us. All those letters have gone out and we are in the 
process of going through the entire detail process on the 
recoupment.
    Mr. Thompson. Are we publicizing the waivers and other 
options available to people not just in the letter but--just 
explain how that is being done.
    Mr. Serino. Right. We have done an outreach in the main 
areas that were affected both, obviously, through the letters, 
but also some other outreach through various news media to let 
them know that this is happening.
    Mr. Thompson. Can you provide the committee with whatever 
that outreach has been? The reason I say it is I am from an 
area that was impacted by Katrina and I have not seen any 
outreach to date.
    Mr. Serino. Okay.
    Mr. Thompson. So I am a little concerned about it. So if 
you would get back to me----
    Mr. Serino. We will get back to you with that, sir.
    Mr. Thompson. Thank you.
    The closeout of some of the Katrina-Rita packages--we saw a 
report recently where, you know, we still have an awful lot of 
disasters that have occurred years ago that we have not closed 
out. What is FEMA's plan for closing out these projects?
    Mr. Serino. We have an aggressive plan to close out the 
older disasters--to try to close out over 200 a year. This year 
I believe we had 103 new offices that are open; we were able to 
close more than that. We were able to close, like, I believe 
120 or so.
    We are putting a very aggressive effort towards that. In 
fact, that is helping us with our Disaster Relief Fund. It is 
actually recouping money.
    Over the last 2 years we have been actually able, through 
closeouts, through de-obligations, is able to get back $4.7 
billion over the last 2 years. We have an aggressive posture 
for this year, as well, to continue that and to continue the 
closeouts as aggressively as possible. Some of the closeouts 
are more difficult that have been on-going, that are still 
active, but some of the longer-term ones we have put a very 
concentrated effort towards that.
    Mr. Thompson. To the Chairman's comment about the 
consolidation of the grants program, you talk about stakeholder 
involvement. Can you provide us the written guidance for 
stakeholder involvement? Some of us are concerned that you have 
consolidated 16 programs into one, but we really want to see 
the plan. If you could provide us with that I think it would be 
very helpful.
    Mr. Serino. Yes, sir. Be glad to.
    Mr. Thompson. I guess that was a reference to the issues of 
the tornadoes in the Midwest last night and yesterday evening. 
Can you just give us, as best you can, an update on how that 
situation is developing?
    Mr. Serino. Sure. We actually--I was on an 8:30 brief call 
this morning and the emergency managing personnel from the 
State of Kansas were on board with us. They gave us a pretty 
detailed update as to--there was a number of injuries, I 
believe--a couple of severe injuries, and also about eight to 
10 other minor injuries in this one town that was severely hit. 
In addition to that, I am not confirmed, of the fatality that 
was reported on the news, but it wasn't confirmed by them as of 
about 8:40 this morning.
    We have been in contact with each one of the State--our 
regional administrators in the States affected, called the 
Governor's office, and spoken with the directors of emergency 
management. At this time they don't see any need for any 
Federal assistance at this time, but again, it is very early 
on. We have been outreaching to them and offering our services 
and have people on the ground.
    Mr. Thompson. Just let me say that, as someone who has gone 
through some of these similar-type situations, an outreach is 
absolutely important. Katrina taught a lot of lessons, and one 
of them is the outreach in the beginning works miracles for 
that process. I would like to compliment the agency on that 
outreach.
    I yield back, Mr. Chairman.
    Mr. Bilirakis. Thank you, sir. Appreciate it.
    Now I will recognize Ranking Member Richardson. Thank you.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Serino, you said that there was going to be a process 
for input regarding the consolidation. Have you determined what 
that process is going to be and when you are going to announce 
it?
    Mr. Serino. We are in the process of putting that together 
and looking for various input from Members of Congress, as 
working with Members of Congress, working with the--we do 
outreach to the communities, to the first responder, the 
communities, the communities at the State and local levels, as 
well. We do that on a fairly regular basis. I don't have all 
the time lines, but--and where we are going to be doing that--
but we can get that to you.
    Ms. Richardson. Okay. Just a few things that I would like 
for you to keep in mind is: One, as we look at regions it is 
important to understand that some cities might be within their 
own right just as large as, you know, another city in another 
area. So specifically in my community, for example, Long Beach 
and Los Angeles is combined together, and Los Angeles, within 
itself, you know, the second-largest city in the entire United 
States, and yet Long Beach, you know, has--when you look at the 
port activity, surpasses all of the others except for Los 
Angeles.
    So it is important that--one of the problems we ran into 
with transportation is that when you consolidate and sometimes 
you only look at one particular area in one region and you may 
be missing--if that region, you know, actually encompasses, 
which is in my case 40 percent of the entire Nation's cargo 
then clearly you shouldn't only be looking at that region as 
one grant allocation. So I think it is important in some of the 
language that I have seen referencing regions that your regions 
are considering size and scope, because you may have several in 
one region that, you know, equate to four or five of the 
others.
    The other thing I would encourage is it has been much 
discussion on this committee is the tiered process. I haven't 
heard anything of whether you intend upon continuing that, and 
I would like some specific information if that is the case.
    Then the third one is, is the State--as I understand it the 
State would be supplied with some of these funds. Would the 
State be a mere pass-through or would the State be the 
determining factor of who actually gets the dollars? Because if 
that were to be the case I think I would have a concern and I 
think probably some of my colleagues, as well, because these 
funds shouldn't be intended to balance a State's budget but 
rather to go as it is intended, and it should be risk-based and 
not for any other purpose.
    My other question--I have several. My first one that I 
have, and excuse my cold here, I have expressed concern in the 
past of the Office of Disability Integration and Coordination 
that it lacks the adequate resources to provide the proper 
assistance to State and local governments as they improve their 
preparedness plans to accommodate special needs populations. I 
understand that this year's budget request about 14 percent 
less funding, or $73,000, for the office's activities at 
headquarters. Why does this budget request seek less funding 
and how will the reduction, in fact, affect the office?
    Mr. Serino. For the Office of Disability Integration we 
actually have put regional personnel in each one of the 
regions. We have put--assigned one to each one of our 10 
regions in addition to headquarters. We have actually 
integrated how we deal with functional access needs and 
disabilities all throughout the agency to--so it is sort of 
difficult to see in the one line item because it is now we have 
it in each region. It is over $1 million that we have assigned 
to that.
    In addition, we have actually put this in how we do 
response. We are trying to not make----
    Ms. Richardson. Isn't it--I apologize, sir, but I have only 
got a minute left. Doesn't this individual, though, have other 
responsibilities besides being the disability coordinator?
    Mr. Serino. No. That is their function.
    Ms. Richardson. That is their sole function.
    Mr. Serino. In each of the regions, yes.
    Ms. Richardson. Okay. So then, what do you anticipate the 
reduction in the funding would be?
    Mr. Serino. We actually have put them in all the regions. 
We actually have seen much increase, if you look at funding 
that was also from the various disasters. They have been at 25 
of our different disasters this past year----
    Ms. Richardson. Are you telling me there is not a 14 
percent reduction in this section?
    Mr. Serino. It is actually spread throughout the 
organization, so----
    Ms. Richardson. So you are telling me there is not a 14 
percent or there is no reduction in the Disability Integration 
and Coordination Office?
    Mr. Serino. I will double-check, but it is actually spread 
throughout the organization. It is not just that one part in 
the office. What we do is we have had--moved it into the 
regional offices in support in each of the regional offices, as 
well. That is for the one office in the headquarters.
    Ms. Richardson. Okay. If you could clarify that for us for 
the committee in writing. Speaking about the regional offices, 
in full year 2012 about $1.18 million was appropriated for 
activities by the regional coordinators. The FEMA budget 
request includes only $1.08 million for regional coordinators. 
So what I am saying to you is you are telling me there is more 
and yet the numbers are telling us there is less.
    Mr. Serino. We actually have--they are in all of our 
regional offices where they are--in each one of the offices we 
have a person that is assigned to each one of those. In 
addition to their being there for those in the regional offices 
they go across the country during a disaster. We had recently 
in the efforts that they were able to do, for example, in 
Pennsylvania during flooding in Harrisburg the work that they 
were able to do was bring together from the disability 
community at the disaster recovery centers and utilizing some 
technologies that actually were not in this war came out of the 
Disaster Relief Fund in order to support the survivors during 
the disaster.
    Ms. Richardson. Mr. Serino, my time is expired, but again, 
my question isn't where are they going; my question is: Is 
there a reduction in the budget? Because according to our 
numbers it is showing there is a reduction in the budget, so 
that is what I need for you to answer.
    But I will catch you on the second round in respect to my 
colleagues.
    Mr. Bilirakis. Thank you. Appreciate that.
    Now I will recognize the gentleman from Texas, Mr. 
Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you very much.
    I would like to take this opportunity to congratulate you 
on doing what I think we are striving to do in the budget--in 
the budget and in the Government overall, and that is 
consolidate and bringing these programs together. The buzzword 
we hear is eliminating waste, fraud, and abuse, and I think the 
consolidation that you guys are doing is a step in that--the 
right direction, and I applaud you for that and hope other 
agencies will follow.
    I understand the other side's concern that some stuff might 
fall through the cracks in these consolidations but I do 
believe that if you have one group overlooking everything you 
don't get a lot of duplicative services. Again, I think that is 
great and I want to congratulate you on that.
    You were also talking about there were some cuts to the 
mitigation. Could you spend maybe 30 to 45 seconds explaining 
what--you know, the broad, general areas of that--of those 
cuts?
    Mr. Serino. Sure. In the pre-disaster mitigation, those 
cuts were--were made and we are actually looking at how we can 
take those. There is a lot of unexpended funds in that Pre-
Disaster Mitigation Fund from previous years, so we are 
actually going to be taking that money and moving it forward 
into this--to this fiscal year into fiscal year 2013 and making 
it so we can approve some of the projects in the past that some 
of the cities, counties, and States were unable to do. So we 
are going to be moving some of those funds.
    In addition to that, we are looking at some of the 
consolidation in the HMPG grants, so we are able to actually 
utilize some of that because a lot of that is in some of our 
flooding grants, as well. So it is a combination of the 
consolidation in that area, as well.
    Mr. Farenthold. All right. There was a--you know, we had a 
big bruhaha in Congress. You all ran out of money last year. 
Obviously we had a historic degree of disasters that you 
discussed earlier. How are we planning for that where you all 
don't come with your hand out come October?
    Mr. Serino. In two different ways. With the Disaster Relief 
Fund we are asking for $6.1 billion and we have actually taken 
and looked at and utilized, looking over the last 10 years, to 
actually see what we have actually be able to spend and what 
are--have be been for non-catastrophic. In addition to that, we 
have asked for a $500 million safety valve relief that we have 
in there that we can use for emergencies. That is so we don't 
end up in that same position that we ended up at the end of 
September last year.
    Mr. Farenthold. Great. I don't want to--as a former 
broadcaster I remain concerned about the Emergency Alert System 
and the--and the PLAN system. You mentioned that it has been 
rolled out in the District of Columbia and New York? I am a 
half-time resident of the District of Columbia. I am not seeing 
any of the outreach on it; there is nothing that has popped up 
on my cell phone. Of course, my phone is billed to my Texas 
address.
    It seems like we need to make sure we have got good 
coverage on this almost to the point rather than being an opt-
in system it ought to be an opt-out system, where if your cell 
phone is in that area you ought to have to opt out. I think you 
judge how many people just don't follow what goes on in 
Government on a day-to-day basis. I am not sure any level of 
outreach will get the level of penetration that I think we 
would need in the event of a true disaster.
    So I would encourage you guys to--to rethink that, even 
though that is a little off-topic for the budget. I do think 
you could not budget enough money for outreach to get the level 
of penetration that you would need for these programs to be 
successful.
    That is basically all I have, and I will yield back the 
remainder of my time.
    Mr. Bilirakis. Thank you very much. Appreciate it, sir.
    All right, next we have my good friend from the State of 
Michigan, Mr. Clarke. You are recognized for 5 minutes.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman.
    Administrator Serino, appreciate your service. My question 
is: How can Congress work with you to better protect those 
high-risk urban areas, such as Metropolitan Detroit, from 
terrorist attacks, and specifically, how we can allocate more 
of the existing money under the Urban Areas Security Initiative 
to those urban areas that are truly at risk? Because Federal 
money is scarce right now but yet the threat to our urban areas 
has not diminished.
    So let me give you my specific case, is that I am concerned 
about the citizens and facilities of Metro Detroit being 
adequately protected by these homeland security funds. I have 
fought to make sure that Metro Detroit remains eligible for 
these Urban Areas Security Initiative Funds and last year the 
Department of Homeland Security awarded over $9 million to 
Michigan under this program to protect urban areas from 
terrorist attacks. Of that $9 million--and again, the State 
received the money even though the law says that it is the 
urban area that would apply for it--of that $9 million the city 
of Detroit only received $800,000. So I wanted to find out how 
we can better allocate that existing money so it goes to the 
high-risk area.
    Now, Metropolitan Detroit has a large population, which is 
spread throughout several counties. However, many of the key 
assets that would be targets of a terrorist attack are within 
Wayne County, such as our international airport--and we already 
had somebody try to blow up a plane already. Many of the 
remaining physical assets are right in the city of Detroit. 
Now, they have not yet been attacked so I want to make sure 
that that doesn't happen.
    In Detroit we have the busiest international border 
crossing at all of North America there. We have a large waste 
water and drinking water system that could be a potential 
threat for bioterrorist attack.
    We have, right on the river front, the symbol of U.S. 
manufacturing--the world headquarters of General Motors--and it 
is in a building that has a 70-story tower in it. That is an 
icon of U.S. manufacturing, and unfortunately, it could be a 
big target for a terrorist to attack.
    So how can we get more of the funds to the city that 
actually needs to protect its people, protect these assets?
    We heard through local homeland security officials, and 
also looking at the law, that the State of Michigan, as well as 
other States, can take up to 20 percent of the funding off the 
top. Now, I am assuming that many States use this money for 
homeland security purposes. But still, that is a large chunk of 
money that could go directly to protect our assets.
    Also, the geographic area that is considered at risk in 
Michigan is very broad. Now, although agriculture is a very 
important job creator in Michigan--it is our second-largest 
industry--I don't think that the corn fields surrounding Metro 
Detroit are at risk from attack from al-Qaeda. They will try to 
blow up the Ambassador Bridge, or contaminate our water supply, 
or blow up another plane that--as they attempted to do a few 
years ago. Our corn fields are not at risk.
    So how can we get more of the funds to the city of Detroit 
and to Metro Detroit, where we actually need that type of 
protection?
    Mr. Serino. With this new National Preparedness Grant 
Program it actually is risk-based and actually looking at the 
risks and where they are, and able to--where we are able to do 
those. In addition to that, it is also looking at the regional 
area to look at where those highest risks in the region and how 
we are able to utilize all the different assets that are in the 
area to help support, whether it is Detroit, whether it is 
another city, whether it is Long Beach, whether it is Los 
Angeles, is looking at it in a regional approach is how we are 
able to support each other and how the communities are able to 
support each other so the assets are assets that are not just 
for the one city but assets for the region, but also assets 
Nationally, as well.
    Mr. Clarke of Michigan. Mr. Chairman, just with the few 
minutes that I have, I would like to follow back up with you 
and your staff just on the issue of Metro Detroit to get more 
of the existing money directly where it is needed.
    Detroit is also in a financial crisis right now for many 
reasons--housing crisis, we have had many schools that were 
closed and parents left the city to send their kids to other 
school districts. But we are in a fiscal crisis and the 
firefighter grants that the Homeland Security has available for 
cities requires the cities to match--provide local dollars up 
to 20 percent. The city of Detroit and other cities facing 
great financial emergencies may not be able to provide that 
type of match even though they need to hire more firefighters 
and better equip their firefighters. What can cities such as 
the city of Detroit do if they can't meet the matching 
requirements because of their financial situation, yet they 
need to be eligible to receive firefighter assistance?
    Mr. Serino. The Firefighter Assistance Grant is actually 
now, obviously, one of the most popular grants and to continue 
to help hire firefighters throughout the country. As you 
requested, we will be more than glad to come and have a 
specific brief for you for--with our grants folks. We would be 
glad to do that.
    Mr. Clarke of Michigan. I really appreciate that. Thank you 
so much, Administrator Serino.
    I yield back my time.
    Mr. Bilirakis. Thank you very much, sir.
    I now recognize the gentleman from New York, and he is 
recognized for 5 minutes, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Thank you, Mr. Serino. I was pleased to hear this is a 
risk-based allocation of resources, and certainly that is good 
news for New York City.
    I had a question on the PLAN--the alert system. Has there 
been efforts to involve the private sector, the internet 
service providers, the telecoms, which seem to me that they 
have the ability do geographically disseminate information and 
do it much more quickly, and has there been a good level of 
cooperation there?
    Mr. Serino. Yes. We have actually had very good cooperation 
with the communications industry--the internet industry. They 
have been really partnering with us as technology has changed 
from where the system was just 5 or 10 years ago to where we 
are today and looking how we can utilize this new technology in 
order to get the word out to our, you know, to the public, 
and--when it is necessary.
    In addition to that, we have also had the opportunity to 
really--during the test but also previously--to make sure we 
maintain some of the old system with the new system, not going 
all to the new. But the communications industry has been one of 
our biggest partners on this.
    Mr. Turner. Could you give me an example of the internet 
service providers--Yahoo, or AOL, or--and----
    Mr. Serino. Well, for example, not just on the alert system 
but on some of the outreach that we are able to do, just about 
10 days ago or so I was actually in San Francisco and had a 
technical roundtable that we brought together people from 
Facebook, from I think Google--there was about 15 different 
high-tech companies that were there that are actually looking 
at how we can use new technology moving forward not just in the 
alert system but also how we are able to--to work and do 
outreach. Some of those really good ideas were reaching out to 
those and continuing that dialogue, as well.
    Mr. Turner. Thank you. That is all I have.
    I yield back.
    Mr. Bilirakis. Thank you.
    Now I will recognize Mr. Marino, from the great State of 
Pennsylvania, for 5 minutes.
    Mr. Marino. Thank you, Chairman.
    Good morning, sir. Thank you for being here. I, too, want 
to commend you on reviewing your budgets line by line. I have 
been involved in business; I have been involved in the Federal 
Government as a prosecutor. To date, no one has been able to 
prove to me that regardless of how efficient an agency is that 
you cannot strive to tweak it and make it a little better, so I 
appreciate that.
    I have one question and I don't know that it is a simple 
question. I am from Pennsylvania in the middle district--the 
10th district--middle district when I was U.S. attorney, and we 
were hit by Irene, we were hit by storms prior to that and 
after that, and actually, a significant amount of damage on the 
East Coast, and particularly in my district.
    What can be done or what funds, if there have been any set 
aside--I know you are a reactive agency, but what are we doing 
on the proactive side of not so much in the training area, 
because you are doing an excellent job there, but actually 
doing substantive work to mitigate the flooding, if you 
understand my question?
    Mr. Serino. Yes. Actually, quite a bit of work that we are 
doing on--a lot of people look at FEMA as just, as you say, a 
reactive agency. In reality, we actually do quite a bit before 
that. We both do in flood mitigation and mitigation for all 
sorts of hazards, as well.
    With the new National Disaster Recovery Framework a lot of 
people think that is recovery after the fact. But we are 
actually finding that a lot of work that could be done ahead of 
time actually is going to save not only lives, and dollars, and 
people's homes and businesses, but it is also going to help 
them deal with some of the financial recovery, if people have a 
plan and plan how to recover after a disaster.
    There are certain communities in this country that are 
really trailblazers on how they are able to do this, and we are 
actually working with them and it is part of our National 
Disaster Recovery Framework under PPD-8 that we are actually 
putting a significant emphasis towards that. We spent a good 
time yesterday with our mitigators on how we can actually look 
at--how we can actually look at mitigating before the disaster 
because, as mentioned earlier, every dollar we spend saves $4. 
Actually that is a really low number because you can actually 
save quite a bit more if you look at how quickly you can get 
people back to work, back into schools.
    Joplin is a great example of that, of how they were able to 
get people back into the schools 55 days after the tornado 
struck. That helps bring back the economy and helps bring back 
people ahead of time.
    Mr. Marino. If you don't mind, I would like to suggest with 
you three or four areas where I see, from my district, where we 
may be able to do some proactive work. Overwhelmingly, people 
refer to it as ``dredging the streams,'' and it is not so much 
the major rivers, it is--and what I have learned over the past 
year, it is the tributaries, and the mountain water, and the 
springs, and the creeks rushing in. I don't refer to it as 
dredging, but--because during the rainfall so much debris--
rock, gravel, stone--washes down into a stream, and of course, 
when you put something into a stream like that and it piles up 
several feet the water is going to come up higher faster.
    So if we could come up with some type of program and the 
funds available to prioritize areas that are doing a great deal 
of damage and have that dredged out and put back and then 
rebuild those banks to try and mitigate runoff. Another area is 
older bridges over secondary and tertiary roads, and those 
bridges sometimes have two pipes separated by a pier in the 
middle and a great deal of debris washes up to those pipes. If 
we could, when we are building bridges on secondary and 
tertiary roads, think about going to the span effect--spanning 
that small bridge over the section of road instead of having a 
pier or a pipe in the middle of it that is going to just be a--
it will clog up and that causes the back--the flooding, as 
well.
    Then also, preventive measures where people are in a flood 
zone and continually are in a flood zone, and we have to convey 
to them that, you know, we will try to help you, buy you out, 
and get you out of there, but you have to make the decision are 
you going to take advantage of it or not, and if not, you know, 
we cannot afford to be rebuilding the property year after year 
after year in the flooding.
    So with that, I appreciate your work and if you need 
anything from my office or this committee please don't 
hesitate.
    I yield back my time.
    Mr. Bilirakis. Thank you. Appreciate it very much.
    I think we have a little time for a second round, so I am 
going to go ahead and ask a couple questions if that is okay.
    First of all, tell us a little bit more about the FEMA 
Think Tank--how it works and how can the folks find out about 
it? What have your experiences been so far?
    Mr. Serino. The FEMA Think Tank is something we started 
earlier this year, announced it last year, came out from an 
idea of people at the State and local level on how they can 
cause--give input to FEMA and the emergency management 
community as a whole.
    The Think Tank is a couple of different facets. You can go 
on-line at www.fema.gov/thinktank and submit ideas, 
suggestions, and actually a forum for people to communicate 
across the country.
    The second part of that is actually a call that we actually 
do once a month that I host that we have people who call in 
about various issues. Last month was about technology and how 
we are able to use technology and going back to ham radio 
operators as a key part of that. We had over 500 people on that 
call; on the first call we had over 650 people. We had tweets 
that were generated from that.
    Mr. Bilirakis. So that is a National call. Not a regional 
call, a National call.
    Mr. Serino. It is a National call that anybody can call 
into and offer suggestions. We usually pick a topic or two on 
how we are able actually to--what the topic is, and so we can 
consolidate the discussion. Then we have an open forum at the 
end.
    This is not just for FEMA, it is actually for the emergency 
management community. What we have seen--for example, one of 
the--the first call was held in Milwaukee, and in Wisconsin the 
State actually heard some of the things on the call and says, 
``Geez, we have never heard of that idea,'' and now they are 
implementing it. We saw the same thing with some of the high-
tech and some of the applications that other people didn't know 
they had.
    So it is an open forum for exchange of ideas of--to share 
those ideas, and it has been very successful. We are having a 
lot of interest in it. We have had a lot of people who have 
tweeted about it and we have had a lot of--not just in social 
media, but a lot of interest from lots of folks.
    We also invite any Members here to attend the call. We will 
make sure people know when the call is, but it is on-line, as 
well.
    Mr. Bilirakis. Can we also post this on our Congressional 
websites to get the word out in our Congressional districts?
    Mr. Serino. That would be great. I think as we talk it is 
really whole of community and how we can reach out to the 
community. We do that in many different ways by going out, 
speaking to folks in person, whether it is at conferences, at 
meetings, every opportunity we have. This is using the 
technology that is available now to continue that whole 
community discussion.
    Mr. Bilirakis. Very good. Thank you.
    Can you elaborate on some of the efficiencies and maybe the 
redundancies that you have eliminated? You have this in your 
testimony, but if you could elaborate we would appreciate it 
very much.
    Mr. Serino. Sure. Some of the things we have done both on 
the Disaster Relief Fund side, first. I will mention a few of 
those that we are actually consolidated some of our field 
offices, that rather than standing up a joint field office for 
all the disasters we actually looked at doing some of those 
virtually, and just by doing that virtually we literally have 
saved millions of dollars on how we are able to do that.
    Some of our joint field offices that we actually have open 
we looked at how we provide security, how we do all of our 
business processing. We are able to save literally millions of 
dollars in that area, as well.
    In the non-Disaster Relief Fund, we hold what we call 
FEMAStat. It is a metrics measurements. We hold those about 
every 2 weeks to look at to see how we are able to focus on one 
area that is cross-cutting in the agency so we are not 
duplicating, whether it is funds, whether it is personnel. We 
have seen significant savings and more operational and breaking 
down the stovepipes between different areas both within the 
agency and how we can do that in the emergency management 
community, as well.
    I have a list of things that we have been able--both 
dollars saved as well as opportunities that we have been able 
to collaborate much better that I would be happy to share with 
you, as well.
    Mr. Bilirakis. Very good.
    One last question: FEMA has been assigned the role of 
coordinating agency for the implementation of PPD-8. How is the 
PPD-8 program executive office coordinating with other DHS 
components and other Federal agencies and departments on the 
development of the various frameworks required by PPD-8?
    Mr. Serino. With PPD-8 we have met all the time lines that 
were set. We have exceeded them. Early on we met the 
preparedness goal and that was sent out last year ahead of 
schedule. We got the system that was developed ahead of 
schedule.
    We are in the process now of developing the preparedness 
report that will be out by the end of March, and as we are 
developing the frameworks--and this is not just FEMA or DHS, it 
is--and it is not just Federal Government. We have been 
reaching out with all the stakeholders. It has been one of the 
really good collaborations. But we have been getting input from 
people from the--not just the Federal but the State, the 
locals, private citizens, the nonprofits have all been giving 
input to these, as well.
    We have been using a lot of technology, as well, to do 
that, so people can send their inputs in and we look at each 
one of those--all those comments and integrate as many of those 
as--we look at all of them and integrate where we can.
    Mr. Bilirakis. Very good. Thank you very much.
    Now I will recognize our Ranking Member.
    Ms. Richardson. Thank you, Mr. Chairman. I have got quite a 
few questions here to wrap up with.
    First of all, Mr. Serino, last fall on the issue regarding 
offsets to fund the Disaster Relief Fund former Secretary of 
Homeland Security Tom Ridge testified, ``Never in the history 
of this country have we worried about the budget around 
emergency appropriations for natural disasters and, frankly, in 
my view we shouldn't be worried now.'' Deputy Administrator, is 
it your belief or the position of the Department that budget 
offsets should be required in applying disaster relief funding?
    Mr. Serino. Currently, as the money that we are asking 
for--the $6.1 billion--should be adequate to meet the needs 
that we have for this current fiscal year, for fiscal year 
2013.
    Ms. Richardson. Mr. Serino, my question is: Do you believe 
that these funds should be required to have an offset?--is the 
question.
    Mr. Serino. At this point we believe we are offset with the 
way we are doing it now.
    Ms. Richardson. No. The question is, in regards to prior 
years, coming years, you may need more money. We may have more 
disasters than what we are planning on of, unfortunately, 
this--these dollars. Is it your position and the position of 
the Department that you should be required to have offsets?
    Mr. Serino. Not at this time.
    Ms. Richardson. Okay. Thank you, sir.
    Second of all, I just want to clarify and run back to real 
quick that according to our notes we are showing that there is 
a reduction in the Offices of Disability Integration and 
Coordination and also in the regional coordinators, so if you 
could clarify that for us, as well.
    Next, I had a question on--according to the full year 2013 
briefing document the committee of FEMA we are expecting a 
reduction of 695 full-time employees. That does not represent a 
reduction in staffing levels, is what your folks have said. Is 
that true?
    Mr. Serino. Correct. What we have done is a number of those 
employees we just moved, but do it to funding in the line items 
where they were. The number of folks that moved, for example, 
in some of the State and local programs were moved and budgeted 
differently.
    To go back to the question on the disability, actually 
there is no budget reduction that we have between fiscal year 
2012 and the fiscal year 2013. In fiscal year 2012 there was 
$1.5 million that included the region and $1.5 million again 
requested in 2013. Overall personnel, no reduction in the 
number of staff between the fiscal year 2012 and fiscal year 
2013.
    Be happy to get with you after this and our staffs, 
whatever, to see where the disconnect may be.
    Ms. Richardson. Okay. Then, sir, also, according to the 
budget, so let me make sure that I am clear--of the 695 
positions you are talking about moving people around but we are 
not talking about reduction in force?
    Mr. Serino. Correct.
    Ms. Richardson. Okay. It is also my understanding there 
might be cuts to the National Fire Academy. Can you tell us how 
that would affect training opportunities, particularly for 
firefighters, especially in these tough budget times?
    Mr. Serino. With the cuts that we are looking at in the 
National Fire Academy we are actually looking at doing this in 
some of the various areas of training. We are actually looking, 
if I am not mistaken, at increasing from last year's level in 
various ways that we are able to in some of the technology 
issues because some of the funds that we had initially with the 
startup costs, and some of those costs now with sustainment so 
we would be able to see some of the savings there.
    Ms. Richardson. Okay. Sir, I understand the consolidation 
of the grant programs, and as you have heard, many Members of 
Congress have expressed their concerns to that. Further, in the 
budget you identify the National Preparedness Grant Program, 
you have the First Responders Assistance, and then you have the 
Management Administration.
    But of the grants that are consolidated that had not been 
in the past it just seems a little odd to me that you left out 
possibly consolidating--you took care of the first responders, 
which has always been a No. 1 priority of this Congress, both 
on the Republican and on the Democratic side. We have always 
fought to reinstate those appropriate funds. What surprises me 
is that you didn't identify a consolidated section, for 
example, for port, transit, and rail.
    It just seems a little odd that you would have port, 
transit, and rail competing with drivers license and, you know, 
citizen training, and--when we know the exposure that we have 
with our ports, when all you have to do is look at the bombings 
around the world on rail. It just seems a little odd of why you 
would have these programs compete and not set aside a minimum 
amount of funding to be able to protect these areas.
    Mr. Serino. One of the things that we are looking at is how 
we can truly consolidate and regionalize so that where people--
those dollars that are spent are utilized in the best way 
possible, and also to make sure that people in the specific 
areas--the cities and the States--that they look at this on a 
regional basis, that it is--yes, it is the ports, and yes, it 
may be transit, but they are also looking at all the assets 
that are available to them so that they are working together.
    Ms. Richardson. Right. But my question is: Wouldn't you 
agree that it seems odd that you wouldn't have particular funds 
to protect your ports and your transit and your rail when you 
compare that to the other programs that you have now dumped 
them in with--to compete with?
    Mr. Serino. Well, I think the important thing to look at is 
how these are consolidated, and so we look at a regional risk-
based area. It is not just looking at just the ports; it is not 
looking at just the transit; it is not looking at just, for 
example, MMRS or UASI. It is looking at how we can consolidate 
and be more effective.
    Ms. Richardson. So, then how are you intended upon 
allocating this program? Because it seems to me at first you 
say, ``We haven't pulled anything together,'' but now it seems 
like to me that you are saying that you are looking at 
allocating these dollars based upon a regional need.
    Mr. Serino. Well, we are looking at the--based on risk, 
and--risk, and also with how we are able to work together as a 
region and have the regional--so the assets that people have 
can be used regionally as well as not just for that specific 
area.
    Ms. Richardson. So, for example, if a region like New York 
or Los Angeles, which is where I am from--Los Angeles-Long 
Beach--if you--if we have major transit, major port, and rail, 
how are you going to adequately divvy all this up, given your 
consolidations?
    Mr. Serino. Well, it will be a combination that people will 
be able to look at that at risk base and then at the same time 
be working with the State and the locals, as well.
    Ms. Richardson. But you have already identified in your 
previous programs that these areas are risk-based. You have 
already identified from prior years your Tier 1 cities of New 
York, Long Beach-Los Angeles, Boston, Chicago, San Francisco, 
Jersey City, Newark, San Diego, Philadelphia, District of 
Columbia, Houston, Dallas-Fort Worth. All of these places have 
transit, port, and rail.
    Mr. Serino. Right. A lot of those also have UASIs and MMRS 
systems, and a lot of them have a lot of the other components. 
What we want to do is make sure that all of those are 
coordinated working together across the different agencies so 
there are not the stovepipes within each city or each area so 
they are not seeing duplicative resources given to one 
particular region. By combining all these grants is a way for 
us to do that.
    Ms. Richardson. So how are you going to ensure that there 
is adequate funding for all these different areas if they are 
competing?
    Mr. Serino. Well, we have--obviously we have a budget and 
we have to work within that budget, and we are able to, you 
know, distribute those based on risk across the country.
    Ms. Richardson. Okay. Seems like we are going in circles 
here and I look--I believe the Chairman has already said he is 
planning on having a hearing, but my question is, if you have 
already identified that there is a risk--for example, in Long 
Beach-Los Angeles with the port--you have already identified a 
risk, that there is transit risk there, you have already 
identified that there is rail issues there, and you have done 
the same for New York, and you have done it for UASI, it seems 
like what is the point, then, of consolidating? Because you 
have already identified that these issues have--that these 
particular communities have these problems.
    Mr. Serino. Well, the risk is in those communities; it is 
in other communities, as well.
    Ms. Richardson. Right.
    Mr. Serino. There are various--and a lot of these programs 
that we have we want to make sure that the previous programs, 
the UASI, that they are not duplicative, that they are not--the 
UASI program is not doing the same thing as the port program, 
as the transit program in one area, and this way of 
consolidating also ensures that.
    Ms. Richardson. Okay. Did you have prior reports that 
demonstrated that that was the case?
    Mr. Serino. Some----
    Ms. Richardson. Yes.
    Mr. Serino. There has been, you know--there are examples 
given, as well.
    Ms. Richardson. Could you supply that to the committee?
    Mr. Serino. Sure.
    Ms. Richardson. Okay.
    Thank you. I yield back.
    Mr. Bilirakis. Thank you.
    Thank you very much. Again, we are going to have a hearing 
on this proposal and we will expect these questions to be 
answered. As you know, there is a lot of concern, but we 
commend you for, you know, consolidating, but we have to get 
these answers--these questions answered before we have an 
opinion on this proposal.
    But I want to commend you, also, for being here. Thank you 
for your valuable testimony.
    Of course, I thank the Members, and my Ranking Member here, 
for asking the tough questions.
    The Members of the subcommittee may have some additional 
questions, and I know we do, and we will ask you to respond in 
writing, sir.
    So the hearing will be--the record will be open for 10 
days. Without objection, the subcommittee stands adjourned. 
Thank you very much for attending.
    [Whereupon, at 11:14 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
